INS-O-00-01




    INSPECTION                    INSPECTION OF
      REPORT                  SELECTED ISSUES OF THE
                                CHEM-BIO FACILITY
                                 AT THE OAK RIDGE
                              NATIONAL LABORATORY




                                   NOVEMBER 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                               2



MANAGEMENT REACTION

Management concurred with the findings and recommendations and initiated appropriate
corrective actions.


cc:   Director, Office of Science
      Leader, Audit Liaison Team, CR-2
INSPECTION OF SELECTED ISSUES OF THE CHEM-BIO
FACILITY AT THE OAK RIDGE NATIONAL LABORATORY


TABLE OF
CONTENTS


                Overview

                Introduction and Objective………………………………..         1

                Observations and Conclusions…………………………..         3

                Oak Ridge National Laboratory
                Officials Inappropriately Used Overhead
                Funds and Did Not Complete Required
                Environmental Documentation

                Details of Finding…………………………………..………             3

                Recommendations……………………..………………….                6

                Management Reaction and Inspector Comments.…….   7

                Appendices

                A.   Scope and Methodology……………….……………           8

                B.   Management Alert……………………………………              9
Overview
INTRODUCTION    The Department is seeking to increase its role in the
AND OBJECTIVE   development of new technologies to detect and counter attacks
                utilizing weapons of mass destruction. Such attacks include
                chemical and biological agents and nuclear devices. Currently,
                DOE is involved with this technology development for domestic
                counter-terrorism purposes, and is also working to assist the
                military with its preparation for weapons of mass destruction
                attacks through work-for-others programs.

                In December 1996, the Department’s Oak Ridge Operations
                Office (ORO) entered into a $32 million, four year work-for-
                others (WFO) interagency agreement with the Department of the
                Army (Army) to develop the Block II Chemical Biological Mass
                Spectrometer (CBMS). The purpose of the agreement was for
                Lockheed Martin Energy Research, Inc. (LMER), the major
                operating contractor at Oak Ridge National Laboratory (ORNL),
                to design, build and demonstrate nine CBMS instruments with
                the ability to rapidly detect and identify biological and chemical
                warfare agents in a battlefield environment. Chemical warfare
                agents to be detected and identified include nerve and mustard
                gases; biological agents such as Botulinum toxin, ricin,
                aflatoxins and an encephalitis virus.

                The CBMS WFO agreement stated that work at ORNL be
                restricted to chemical and biological agent simulants and killed
                biological agents; work with actual agents would be performed
                at Department of Defense approved facilities. The agreement
                also stated that work with chemical materials could be
                performed at ORNL if and when an Army certified chemical
                capability was established.

                In October 1998, a pre-fabricated containment laboratory for
                defensive research, development, and testing using trace
                amounts of chemical and biological warfare agents, commonly
                known as the “Chem-Bio” facility, was installed at ORNL
                allowing non-simulant biological and chemical warfare agent
                research in developing the CBMS. The Chem-Bio facility
                included two separate laboratories, one for research with
                chemical warfare agents and the other, a Biosafety Level-3
                laboratory, for research with biological warfare agents. The
                Chem-Bio facility was procured for three reasons: (1) to
                maintain an aggressive CBMS program schedule, (2) to
                minimize travel to the Army’s testing facility in Dugway, Utah,
                in connection with CBMS research, and (3) for rapid addition of
                agents to the CBMS capability.



Page 1                                  Inspection of Selected Issues of the Chem-Bio
                                        Facility at the Oak Ridge National Laboratory
         The OIG has issued a previous report dealing with the WFO
         program at Oak Ridge. In Report ER-B-97-04, Audit of
         Selected Hazardous Waste Remedial Actions Program Costs, it
         was determined that Lockheed Martin Energy Systems did not
         properly manage and account for costs claimed under its
         interagency agreements. Lockheed Martin Energy Systems
         transferred costs among accounts to avoid overruns and to use
         the maximum funds authorized. In Report DOE/IG-0307,
         Procurement of Services from 8(a) Contracts for the Work-for-
         Others Program, the OIG reported that the 8(a) contracts were
         not properly administered, which resulted in out-of-scope work
         being performed. In Report ER-B-91-15, Selected Aspects of
         Martin Marietta Energy Systems, Inc., Work-for-Others
         Management, the OIG determined that Martin Marietta Energy
         Systems had commenced work before Departmental approval,
         performed work outside the scope of funding documents, and
         exceeded authorized funding. The report cited examples in
         which labor costs were not charged to the associated task and a
         cost overrun was charged to an overhead account.

         Our inspection included two objectives, to determine whether:
         (1) costs charged by LMER in the performance of the CBMS
         WFO project were incurred in accordance with DOE
         requirements and the terms of the Army’s interagency
         agreement, and (2) environmental documentation for the Chem-
         Bio facility was completed as required by DOE regulations.

         As part of its implementation of the Government Performance
         and Results Act of 1993 (GPRA), the Department must, among
         other things, establish program goals and measure performance
         against these goals. ORO, in negotiations with LMER,
         established the ORNL FY 1999 Critical Outcomes Plan which
         defined expectations and provided a basis for evaluating
         performance. This plan included elements regarding Business
         Operations and Environment, Safety and Health. For example,
         LMER will: (1) use efficient and effective corporate
         management systems to, among other efforts, reduce costs, and
         (2) comply with all applicable environmental laws, regulations,
         ordinances and associated permits. This inspection report has
         been prepared in part to accomplish the purposes of the GPRA,
         by documenting methods of improving efficiency in Federally-
         funded programs.




Page 2                           Inspection of Selected Issues of the Chem-Bio
                                 Facility at the Oak Ridge National Laboratory
Observations and         We found that LMER improperly used funds from ORNL
Conclusions              overhead accounts to fund the CBMS WFO project.
                         Specifically, $265,196 from ORNL division overhead
                         accounts was provided to fund the CBMS WFO project to
                         install, inspect, and test the Chem-Bio facility. Departmental
                         requirements and the CBMS WFO interagency agreement
                         preclude DOE from financing reimbursable work from its
                         own appropriations or from another customer’s funds.
                         LMER reviewed a portion of the $265,196 spent on the
                         Chem-Bio facility from the ORNL overhead account. In
                         January 1999, LMER reversed $111,373 from ORNL
                         overhead accounts and charged that same amount to the
                         Army’s CBMS WFO project account. At the time of our
                         inspection, the remaining overhead funds, a total of
                         $153,823, were placed under review by LMER.

                         Further, we found that LMER did not complete
                         environmental documentation required for the Chem-Bio
                         facility. Specifically, the Chem-Bio facility was constructed
                         with a Biosafety Level-3 laboratory, which, according to
                         Departmental implementing regulations for the National
                         Environmental Policy Act of 1969 (NEPA), would have
                         required an environmental assessment. We determined that
                         this regulatory compliance issue required immediate
                         management attention and it was addressed in an Office of
                         Inspector General Management Alert, titled “Inspection of
                         the Chem-Bio Facility at ORNL,” S99IS019, issued on
                         June 30, 1999 (Appendix B).

Insufficient Financial   The contract between LMER and DOE, and the CBMS WFO
Controls on ORNL         agreement requires LMER to comply with DOE’s Chief
Overhead Accounts        Financial Officer’s Financial Handbook. This Handbook
                         states that DOE shall not finance reimbursable work from its
                         own appropriations or another customer’s funds.

                         The Chem-Bio facility, a pre-fabricated structure, cost
                         approximately $295,000 and was funded from the Army’s
                         CBMS WFO account. However, costs associated with the
                         design and installation of the Chem-Bio facility were not
                         originally charged to the Army. For example, installation
                         costs of $53,823, for Fiscal Year 1998, and installation costs
                         of $47,747 and design costs of $9,803 for Fiscal Year 1999,
                         for a total of $111,373, were charged to ORNL division
                         overhead accounts. In January 1999, ORO requested that
                         LMER conduct a review of these overhead expenditures. In
                         a Request for Budget and Accounting Change document,



Page 3                                                              Observations and Conclusions
         dated January 28, 1999, all three charges were reversed and
         transferred from ORNL’s division overhead accounts to the
         Army’s CBMS WFO account.

         We were told by an LMER division accounting official that
         LMER had conducted a review of the ORNL division
         overhead account expenditures for the Chem-Bio facility.
         He said that since the funds were used to expand upon the
         initial scope of the Army’s CBMS WFO project, they should
         have come from the Army CBMS WFO account. He said
         that ORNL Division Directors provide authorization to spend
         funds within these accounts and that efforts had been made to
         ensure that Division Directors were made aware of what was
         and what was not an appropriate division overhead account
         expenditure.

         In addition to the $111,373 charged to ORNL division
         overhead funds that were reversed and charged back to the
         Army, an additional $153,823 of ORNL division overhead
         funds, from four divisions, were authorized for use on the
         CBMS project. ORNL’s Life Sciences Division and
         Chemical Technology Division each authorized $25,000, the
         Chemical and Analytical Sciences Division authorized
         $50,000, and the Instrumentation and Controls Division
         authorized $53,823. Of these funds, $24,062 was used to
         register the biological laboratory with the Centers for Disease
         Control and Prevention (CDC) for the transfer of controlled
         biological agents, labor for leakage and pressure tests of a
         glove box, and labor for preparation of facility documents.
         Also, $23,879 was used for labor and materials for the set up
         of monitoring procedures. Other items purchased with these
         funds include an eyewash and a windsock. The remainder of
         the funds were projected to be used for, among others,
         building maintenance, quality assurance certification and
         costs of annual external reviews. As a result of our
         inspection activities, the LMER division accounting official
         told us that an internal review would be conducted regarding
         the use of $153,823 of ORNL division overhead funding for
         the CBMS WFO project.




Page 4                                                            Details of Finding
Management Alert   During our review, we found that LMER did not complete
Response           environmental documentation required for the Chem-Bio
                   facility. Specifically, the Chem-Bio facility was constructed
                   with a Biosafety Level-3 laboratory, which, according to
                   Departmental implementing regulations for NEPA, would
                   have required an environmental assessment. We issued a
                   Management Alert titled “Inspection of the Chem-Bio
                   Facility at ORNL,” S99IS019, on June 30, 1999
                   (Appendix B). ORO responded to this alert in an August 6,
                   1999, memorandum and stated that the CBMS Program
                   Manager had been incorrect and that dry lyophilized
                   Botulinum toxin had not been received at ORNL. Although
                   the Material Safety Data Sheets which accompanied the
                   Botulinum toxin in shipment stated that it was in liquid form,
                   dry lyophilized Botulinum toxin was assumed to have been
                   received instead. Further, ORO maintained that an
                   environmental assessment was not required because the
                   scope of work did not constitute microbiological or
                   biomedical research activity. On August 20, 1999, we met
                   with ORO representatives to discuss this response. We were
                   told that there was no immediate intention to conduct
                   research outside of the present scope. However, ORO said
                   that they believed the facility represented a legitimate
                   opportunity to establish a microbiological capability for the
                   future.

                   NEPA procedures require that environmental information be
                   made available to public officials and citizens before
                   decisions are made, before actions are taken, and to identify
                   and assess reasonable alternatives. Agencies are required to
                   integrate the NEPA process with other planning at the
                   earliest possible time to ensure that planning and decisions
                   reflect environmental values, to avoid delays later in the
                   process, and to head-off potential conflicts. We believe,
                   based on documentation reviewed during this inspection and
                   also on statements made by LMER and ORO officials, that
                   LMER procured and installed the Chem-Bio facility with the
                   intent for it to be used as a Biosafety Level 3 laboratory and
                   with plans to conduct microbiological research in the future.
                   Research conducted at the facility on biological warfare
                   agents, including those within the present scope and those
                   planned for future research, could be regarded as
                   controversial and may create difficulties in completing an
                   environmental assessment and in realizing the facility’s
                   future capabilities.




Page 5                                                                      Details of Finding
                  At the conclusion of our meeting, ORO agreed to review the
                  reclassification of the Biosafety laboratory from level 3 to
                  level 2 and to reconsider their registration with the CDC to
                  receive live agents. We believe that these actions are
                  positive steps by ORO management, but we also note that the
                  Chem-Bio facility was prefabricated to contain a fully
                  functioning Biosafety Level 3 laboratory and that the future
                  microbiological capabilities of the laboratory would not be
                  affected by simply deregistering the facility for live
                  biological warfare agents. However, should future projects
                  for the facility include live agents and, at that point, if a
                  favorable determination for live agents could not be reached
                  through an environmental assessment, then the taxpayers
                  would have been better served if alternatives and future plans
                  for the facility had been fully evaluated, in the spirit of
                  NEPA compliance, prior to the expense of procurement and
                  installation of the facility.

OTHER ISSUES      During our inspection, we identified specific concerns related
                  to the physical security of the Chem-Bio facility and its
                  contents. Our discussions with the CDC validated these
                  concerns. The specific issues relating to the security of the
                  Chem-Bio facility and its contents were discussed with ORO
                  officials, who advised us that they were taking appropriate
                  action to address these concerns.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                  1. Recoup ORNL division overhead funds used for the
                     CBMS project.

                  2. Determine whether other WFO projects at ORO have
                     been funded from overhead account funds and, if so,
                     recoup these funds.

                  3. Ensure that documentation for future projects which
                     require NEPA compliance is completed in planning
                     phases.




Page 6                                                                  Recommendations
             4. Review the current capabilities, current CDC registration,
                and also future long term plans for microbiological
                research at the Chem-Bio facility and determine whether
                an environmental assessment should be completed or
                whether other actions are necessary to ensure NEPA
                compliance, such as, reclassifying the facility from a
                Biosafety Level 3 facility to a Biosafety Level 2 facility,
                and amending CDC registration as appropriate.

             5. Determine whether LMER is taking appropriate
                measures to ensure that the Chem-Bio facility
                and its contents are secure.

MANAGEMENT   Management concurred with the recommendations and
REACTION     agreed to take corrective actions. Specifically, management
             said that $157,272 in division overhead accounts was
             identified and correctly assigned to the sponsor’s account.
             Fully burdened, this amount would be $201, 299.
             Management conducted a detailed analysis of the CBMS
             project and identified an additional $89,926 of costing
             problems which were assigned to the sponsor’s account.
             Management said that controls are in place at ORNL to
             regulate the funding mechanisms for WFO projects but that
             they are requiring the contractor to perform confirmation
             sampling, to be completed by March 31, 2000, to ensure that
             similar incidents do not exist. Management said that NEPA
             documentation must be completed in the planning phase of
             all actions and a process is in place to ensure all actions
             receive an early NEPA review. However, a categorical
             exclusion was issued without adequately considering the
             language of DOE Categorical Exclusion B3.12 and the
             categorical exclusion was issued in error. Restrictions have
             been placed upon the Chem-Bio facility to exclude BSL-3
             actions and an environmental assessment will be conducted
             before any BSL-3 work is performed at the Chem-Bio
             facility. Management said that appropriate security measures
             were taken to include physical security upgrades and
             imposition of more stringent security policy.

INSPECTOR    Management’s comments are responsive to the
COMMENTS     recommendations




Page 7                                 Management Reaction/Inspector Comments
Appendix A

SCOPE         The inspection was performed at the Oak Ridge Operations
              Office in Oak Ridge, Tennessee, from January 1999 through
              June 1999.

METHODOLOGY   This inspection was conducted in accordance with the
              “Quality Standards for Inspections” issued by the President’s
              Council on Integrity and Efficiency. As part of our
              inspection we interviewed officials at the Oak Ridge
              Operations Office and Lockheed Martin Energy Research,
              Inc. We also interviewed officials with the Centers for
              Disease Control and Prevention and the U.S. Army’s
              Dugway Proving Grounds. We also reviewed pertinent
              records and documents pertaining to NEPA and the DOE
              Work-for-others Program




Page 8                                                        Scope and Methodology
Appendix B




Page 9       Management Alert
Page 10   Management Alert
                                                                                 IG Report No. INS-O-00-01


                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers’ requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in the
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                              Date

Telephone                                         Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available
electronically through the Internet at the following alternative address:

          Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig

                                           or
                                 http://www.ma.doe.gov



            Your comments would be appreciated and can be provided on the
                   Customer Response Form attached to the report.
